                    ‘hation




      PROPERTY MANAGEMENT CONTROLS AT DEFENSE
         REUTILIZATION AND MARKETING OFFICE,
                VANDENBERG, CALIFORNIA



Report Number 98- 190                       August 19, 1998




              Office of the Inspector General
                  Department of Defense
Additional    Information   and Copies

To obtain additional copies of this evaluation report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD, Home Page at www.dodig.osd.mil.

Suggestions    for Future Evaluations

To suggest ideas for or to request future evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also
be mailed to:

                        OAIG-AUD (ATTN: APTS Evaluation Suggestions)
                        Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                        Arlington, Virginia 22202-2884

Defense Hot line

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
writing the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller is fully protected




Acronyms

DAISY                  Defense Reutilization and Marketing Automated Information
                          System
DLA                    Defense Logistics Agency
DRMO                   Defense Reutilization and Marketing Office
DRMS                   Defense Reutilization and Marketing Service
FLIPL                  Financial Liability Investigation of Property Loss
                               INSPECTOR     GENERAL
                              DEPARTMENT   OF DEFENSE
                                400 ARMY NAVY DRIVE
                              ARLINGTON. VIRGINIA 22202




                                                                       August 19, 1998

MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Evaluation Report on Property Management Controls at Defense
         Reutilization and Marketing Office, Vandenberg, California
         (Report No. 98-190)


        We are providing this report for review and comment. We conducted the
evaluation in response to a request from Senator John McCain of Arizona. We
considered management comments on a draft of this report in preparing the final
report.

     DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Comments from the Defense Logistics Agency were responsive.

        We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Ms. Debra B.D. Murphy at (703) 604-8788
(DSN 664-8788), e-mail dmurphy@dodig.osd.mil or Mr. Timothy E. Moore at
(703) 604-8778 (DSN 664-8778), e-mail tmoore@dodig.osd.mil. See Appendix D for
the report distribution. The evaluation team members are listed inside the back cover.




                                        David K. Steensma
                                 Deputy Assistant Inspector General
                                           for Auditing
                             Offke   of the Inspector   General,   DOD

Report No. 98-190                                                        August 19, 1998
  (Project No.7LH-3012.01)


       Property Management Controls at Defense Reutilization and
                Marketing OffIce, Vandenberg, California

                                      Executive Summary

Introduction.   We conducted this evaluation in response to a request from Senator
John McCain of Arizona. This is the first of two reports that we will issue on DOD
property management and disposal controls. The second report, Evaluation of Property
Disposal Management Controls, will cover the remaining issues. In FY 1997, the
Defense Reutilization and Marketing Office, Vandenberg, California (DRMO
Vandenberg), disposed of approximately 11,890 line items with an acquisition value of
$3 1.5 million.

Evaluation Objectives.     The overall evaluation objective was to determine whether
adequate management controls exist over the transfer, donation, and disposal of excess
and surplus DOD personal property. The specific objective of this report was to assess
property management and disposal controls at DRMO Vandenberg. We will discuss
the adequacy of the overall Defense Reutilization and Marketing Service management
control program in a subsequent report.

Evaluation      Results. Property management and disposal controls at DRMO
Vandenberg needed improvement. Specifically, in August 1996, DRMO Vandenberg
personnel identified 88 missing line items of excess property requiring demilitarization.
However, adequate investigations were not performed or planned regarding the cause
of the property loss for more than a year. Further, DRMO Vandenberg removed an
additional 327 line items of property from its inventory without adequate investigation
and without appropriate approval. As a result, there was increased risk that
undemilitarized personal property could be sold to the public or stolen. See Part I for
details of the evaluation results.

Summary of Recommendat ions.         We recommend that the Commander, Defense
Reutilization and Marketing Service, complete the investigation into the loss of the
88 line items of property requiring demilitarization and the 327 line items removed
from the DRMO Vandenberg accountable records, in accordance with prevailing
regulations.
Management      Comments. The Defense Logistics Agency concurred and stated that the
Defense Reutilization and Marketing Service was investigating missing property and
other property requiring demilitarization that was removed from accountable records.
The investigation was to be completed by July 24, 1998, and findings forwarded to the
Defense Logistics Agency. Also, the Defense Reutilization and Marketing Service
made a complete assessment of operations, conducted random inventories with a
lOOpercent accuracy rate, and assigned an experienced DRMO chief. Part I discusses
management comments and Part III contains the complete text of management
comments.




                                         ii
Table of Contents

Executive Summary                                      i


Part I - Evaluation Results

      Evaluation Background
      Evaluation Objectives
      Property Management and Disposal Controls

Part II - Additional Information
      Appendix A.   Evaluation Process
       Scope and    Methodology                       12
      Appendix B.   Organizational Responsibilities   14
      Appendix C.   Definitions                       15
      Appendix D.   Report Distribution               16

Part III - Management Comments
      Defense Logistics Agency Comments               20
Part I - Evaluation Results
Evaluation Background

    This evaluation was performed in response to a request received from Senator
    John McCain of Arizona. An individual in the Arizona corrections system was
    alleged to have illegally diverted tens of millions of dollars in surplus or excess
    military equipment for personal gain over the past several years. Senator
    McCain requested that the Inspector General, DOD, investigate whether
    adequate controls exist for the management and disposal of DOD personal
    property *

    Organizational   Responsibilities.   The Defense Logistics Agency (DLA)
    through the Defense Reutilization and Marketing Service (DRMS) is responsible
    for developing systems for accounting, controlling, and disposing of excess and
    surplus DOD property. Appendix B contains responsibilities for organizations,
    such as the General Services Administration, the DLA, and DRMS, that play
    pivotal roles in the disposition of DOD excess and surplus property.

    DOD Guidance.     DOD policies and procedures for the disposition of DOD
    personal property are set forth in DOD Manual 4160.21-M, “Defense Materiel
    Disposition Manual” (the Disposition Manual), August 1997. The Disposition
    Manual is a revision of DOD Manual 4160.21-M, “Defense Reutilization and
    Marketing Manual, * March 1990. The Disposition Manual is applicable to all
    elements of DOD and its subordinate commands, installations, and
    organizations.

    Property Disposal Guidance.   Procedures for property accounting for the
    DRMS and its Defense Reutilization and Marketing Offices (DRMOs) are
    contained in DRMS Instruction 4160.14, “Instructions for Property Accounting
    for DRMS and the DRMO Stores” (the DRMS Instruction Manual), June 1996.

    The DRMS Instruction Manual is clear on documentation and authority levels
    required for investigations into property loss, as well as the time frames within
    which required investigations must be conducted. Documentation, authority
    level, and time frames for investigations vary by type of adjustment; evidence
    of fraud, theft, negligence, deliberate unauthorized use, or willful misconduct;
    acquisition value of property; and property type. Appendix C contains
    definitions of terms used throughout this report in reference to the management
    and disposal of excess and surplus DOD personal property.
Evaluation Objectives

     The overall objective of this evaluation was to determine whether adequate
     management controls exist over the transfer, donation, and disposal of excess
     and surplus DOD personal property. This is the first of two reports. The
     specific objective of this report was to assess property management and disposal
     controls at DRMO Vandenberg, California. We will report the results of our
     overall objective, including the adequacy of the overall management control
     program, in the second report. See Appendix A for a discussion of the scope
     and methodology.
            Property Management                       and
            Disposal Controls
            Property management and disposal controls at DRMO Vandenberg
            needed improvement. Specifically, in August 1996, personnel at DRMO
            Vandenberg identified 88 missing line items of excess personal property
            requiring demilitarization, but failed to conduct adequate and timely
            investigations into the proximate causes of the property loss. During the
            same period, personnel at DRMO Vandenberg removed 327 line items
            of personal property from its accountable records at lower than required
            authority levels, and without adequate investigation. The untimely and
            inadequate property investigations and adjustments occurred because
            controls were not enforced to ensure compliance with DRMS
            regulations. As a result, there was increased risk that potentially
            dangerous, undemilitarized personal property could be sold to the public
            or stolen.



Property Requiring Demilitarization

     Chapter 1, paragraph C.4 of DOD Manual 4160.21-M-1, “Defense
     Demilitarization Manual,” October 1991, states that property requiring
     demilitarization poses a potentially deadly hazard as it has, by definition, a
     military and possibly lethal purpose. The Disposition Manual, paragraph 38,
     states that demilitarization includes mutilation, dumping at sea, scrapping,
     melting, burning, or alteration designed to prevent the further use of equipment
     and material for its originally intended military or lethal purpose.

     History of Property Requiring    Demilitarization.    From March through May
     1996, DRMO Vandenberg received a larger than usual quantity of property
     requiring demilitarization because of the closure of an Atlas missile site. As a
     result, by the end of May 1996, an abnormally high volume of line items of
     property requiring demilitarization (1,300) were listed on the DRMO
     Vandenberg RESI I list, a management report that is used to track and monitor
     property requiring demilitarization. The RESI I list contains information on
     property DRMO receives that requires demilitarization and that has been on
     hand for at least 35 days without completion of required demilitarization and
     disposal actions.
                                 Property Management      and Disposal Controls



In June 1996, the zone manager at DRMS Northern California dispatched a
team of employees from the DRMOs in McClellan, Port Hueneme, and
Stockton, California, to DRMO Vandenberg to assist in the demilitarization of
the property identified on the DRMO Vandenberg RESI I list. The team was
released without completing the documentation of its effort.

In August 1996, the zone manager dispatched another team of DRMO
employees from Alameda, California, and Stockton to DRMO Vandenberg to
conduct a record-to-floor inventory of on-hand property. The record-to-floor
inventory revealed that 88 line items of property requiring demilitarization were
missing.

Investigations    of Missing Property Requiring Demilitarization.      DRMO
Vandenberg managers did not initiate adequate and timely actions to identify the
disposition of 88 missing line items of excess personal property that required
demilitarization. Because 50 of the 88 line items were turned in to DRMO
Vandenberg with local stock numbers, the value of the 88 line items was not
readily determinable and accuracy of the posted demilitarization codes that
identify and determine the potential danger an item posed to the public could not
be verified. Despite identification of the lost property in 1996, DRMO
Vandenberg did not take action to investigate until January 1998, almost
1 l/2 years later. The DRMS Instruction Manual requires that a separate
financial liability investigation of property loss (FLIPL) be prepared for each
line item of property requiring demilitarization that is reported as lost or
missing.

In January 1998, the current DRMO Vandenberg chief informed us that the
zone manager at DRMS Northern California was in possession of all paperwork
concerning the 88 line items. However, the zone manager stated that while he
had the FLIPL packages, they were incomplete and not sufficient for him to
submit to the DRMS regional commander for signature. The zone manager did
not provide the incomplete FLIPL packages to us for review; however, he did
provide us with a signed statement from the DRMO Vandenberg chief who was
in charge in 1996.

          Explanation for Missing Property. In the written statement explaining
the circumstances under which the 88 line items of property requiring
demilitarization were lost, the former DRMO Vandenberg chief speculated that
demilitarization actions were completed on the missing property in June 1996.
However, there was no evidence of any investigation or other inquiry to support
the former chiefs speculation. Further, although the 88 line items could not be
located, they appeared on the DRMO Vandenberg item management resolution
list, a list showing property that has been in the DRMO Vandenberg possession


                                    5
Property Management    and Disposal Controls



      for more than 1 year. There was no documentation that demilitarization was
      completed or that final disposition was taken on the 88 line items. As a result
      of not investigating the missing property, DRMO Vandenberg may have
      unknowingly reutilized or transferred undemilitarized property to other Federal,
      state, or local entities or sold it to the public.

             Actions Required for Investigations    of Missing Property.   For the
      88 missing line items requiring demilitarization, DRMO Vandenberg needed to
      identify where the property loss occurred, when the property loss occurrd, and
      how the property loss occurred and to show any evidence of negligence, willful
      misconduct, or deliberate unauthorized use. The DRMO Vandenberg
      investigation should have included signed and dated statements from every
      individual who handled the property, from the date the property was received to
      the date the loss was discovered. DRMO Vandenberg should have also
      recorded statements regarding the missing property from receivers,
      warehousepersons, sales writers, and persons who purportedly demilitarized or
      downgraded the property. Upon conclusion of the investigation, DRMO
      Vandenberg must determine the proximate cause and review controls to prevent
      recurrence.



Loss of Personal Property

      DRMO Vandenberg removed 327 line items of personal property from its
      accountable records without adequate investigation and without appropriate
      authority levels. Although potentially usable, the value and condition codes of
      the property could not be determined because the turn-in documents for the
      property were not available. Specifically, a record-to-floor inventory in August
      1996 disclosed that 327 line items of personal property that included highly
      pilferable and potentially dangerous items, such as l-ton and electric forklifts;
      cargo and wrecker trucks; and a guided missile launch tube classified as
      ammunition, explosive, or other dangerous articles, could not be accounted for.
      On October 1, 1996, DRMO Vandenberg had an on-hand inventory of
      2,591 line items; therefore, the 327 line items represented approximately
      13 percent of the DRMO Vandenberg inventory.

      Items Removed From Records.       DRMO Vandenberg removed 327 line items
      from its accountable records, using DRMS Form 39-3, the Defense
      Reutilization and Marketing Service automated information system (DAISY)
      inventory adjustment request/voucher (DRMS Form 39), without documented
      evidence of investigation. The DRMS Instruction Manual requires that for


                                          6
                                 Property Management      and Disposal Controls



quantity loss adjustments in which no evidence of fraud, theft, negligence,
deliberate unauthorized use, or willful misconduct is present and the acquisition
value is less than $25,000, a DRMS Form 39 may be used and signed by the
regional commander or his designee. However, if evidence of fraud, theft,
deliberate unauthorized use, willful misconduct, or negligence is present, a
FLIPL with investigation must be completed. We were informed that in
November 1996, the zone manager approved the DRMS Forms 39. However,
DRMO Vandenberg records documented the disposition of only 38 of the
original 327 inventory adjustments, and DRMO Vandenberg was unable to
produce documentation for the other 289 inventory adjustments. Furthermore,
although the inventory team records showed that the 327 line items of property
removed from accountable records did not require demilitarization, 3 of the line
items did require demilitarization.

        Determination of Fraud, Theft, Deliberate Unauthorized Use,
Willful Misconduct, or Negligence. For the 327 line items removed from the
DRMO Vandenberg accountable records, no documentation existed to indicate
that an investigation was conducted to determine whether fraud, theft, deliberate
unauthorized use, willful misconduct, or negligence was involved in the
property loss. DRMS Manual 4160.14, “Property Disposal Procedures for the
Defense Reutilization and Marketing Offices,” March 1992, provides steps that,
at a minimum, must be completed when property is lost at a DRMO. Had
DRMO Vandenberg complied with those requirements and completed and
documented the steps, a credible decision could have been made regarding the
property loss. We were informed that the zone manager approved the DRMS
Forms 39. However, the letter authorizing the zone manager to sign DRMS
Forms 39 as the regional commander’s designee specifically stated that he was
not authorized to sign a FLIPL as the regional commander’s designee. Because
three line items required demilitarization, a FLIPL with investigation was
required.

       Actions Required for Investigations    of Missing Property.   For
property that is pilferable or potentially dangerous, DRMO Vandenberg needs
to identify where the property loss occurred, when the property loss occurred,
and how the property loss occurred and to show any evidence of negligence,
willful misconduct, or deliberate unauthorized use. The DRMO Vandenberg
investigation should include signed and dated statements from every individual
who handled the property, from the date the property was received to the date
the loss was discovered. DRMO Vandenberg should also record statements
regarding the missing property from receivers, warehousepersons, sales writers,
Property Management    and Disposal Controls



      and persons who demilitarized or downgraded the property. Upon the
      conclusion of the investigations, DRMO Vandenberg must determine the
      proximate cause and review controls to prevent recurrence.

Management       Actions Taken

      As a result of our January 1998 review at DRMO Vandenberg, the zone
      manager at DRMS Northern California initiated investigations of the 88 line
      items requiring demilitarization and the 327 line items removed from the
      DRMO Vandenberg accountable records.

      To improve inventory controls throughout DRMS, in June 1997, DRMS
      developed and began presenting 4-hour FLIPL workshops to DRMO chiefs.
      DRMS plans to expand the training to include western zones and operations east
      and west staff.

Recommendations,          Management           Comments,       and Evaluation
Response

      Deleted Recommendation.       As a result of management comments and
      corrective actions, we deleted draft Recommendation 4.

      We recommend     that the Commander,     Defense Reutilization   and Marketing
      Service:

               1. Complete investigations into the loss of the 88 line items of
      property requiring demilitarization that were listed on the Defense
      Reutilization and Marketing Office, Vandenberg,       January 1998 item
      management resolution list, in accordance with Defense Reutilization and
      Marketing Service Instruction 4160.14.

             2. Complete investigations     of the 327 line items removed from the
      Defense Reutilization and Marketing Office, Vandenberg, accountable
      records in November 1996, in accordance with prevailing Defense
      Reutilization and Marketing Service regulations.       A less intense
      investigation is required for property that does not require demilitarization,
      is nonsensitive, is not highly pilferable, and has a low dollar value.

             3. Based on the results of the investigations, institute measures,
      where appropriate, to preclude recurrence of the loss of property at this
      magnitude.


                                          8
                                  Property Management      and Disposal Controls



Management     Comments. The DLA concurred and stated that DRMS was
investigating the loss of 88 line items requiring demilitarization and 327 line
items removed from the accountable records. DRMS determined that the losses
were caused by multiple factors, including an inexperienced DRMO chief and
zone manager, and inadequate resources to handle the increased work load.
DRMS found no policy or procedural deficiencies. DRMS stated that the
327 line items were dropped from record without deliberate fraud, theft, or
willful misconduct. Of the 327 items, 5 required demilitarization. The
investigation of the 5 items and the 88 line items requiring demilitarization was
to be completed by July 24, 1998.

DRMS conducted an April 1998 assessment of the entire DRMO Vandenberg
operation. It conducted random inventories with a lO@percent accuracy rate.
In addition, DRMS assigned an experienced DRMO chief. Further, DRMS
personnel will review inventory control procedures during future validation
visits to DRMOs. DRMS was scheduled to complete and forward all findings
to DLA by July 24, 1998.

Evaluation   Response.   DLA comments were responsive.
Part II - Additional Information
Appendix      A. Evaluation             Process


Scope and Methodology

    We evaluated property management and disposal controls at DRMO
    Vandenberg. DRMO Vandenberg is one of eight DRMOs judgmentally selected
    for our evaluation of the DRMS property disposal management controls. Our
    focus was DRMO accountability of property through the disposal cycle. We
    traced property and associated turn-in documents from the generating origin,
    through DRMO functions (receipt, processing, accounting for, and issue), to the
    gaining organizations via transfer, donation, and disposal transactions.

    We interviewed generator and DRMO personnel. We also reviewed turn-in,
    transfer and donation documents, inventory adjustments, rejection documents,
    and management reports. Further, we reviewed the DRMO property receiving
    and issuing process. The dates of those documents varied from October 1996
    through December 1997.

    Limitation of Scope. We did not validate the financial data on the documents
    collected because verification of financial data was not necessary to meet
    evaluation objectives. We did not evaluate the DRMO reutilization and sales
    functions.

    The adequacy of the management control program was not addressed in this
    report. The adequacy of the overall DRMS management control program will
    be addressed in the second report.

    Corporate Level Goals. In response to the Government Performance and
    Results Act, the DOD has established 6 DOD-wide corporate level performances
    objectives and 14 goals for meeting these objectives. This report pertains to
    achievement of the following objective and goal.

            Objective: Fundamentally reengineering the Department and achieve a
    21st century infrastructure. Goal: Reduce cost while maintaining required
    military capabilities across all DOD mission areas. (DOD-6)




                                      12
                                               Appendix    A. Evaluation   Process



DOD Functional    Area Reform Goal.     Most major DOD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objectives and
goal.

         Logistics Functional Area. Objective: Streamline logistics
infrastructure. Goal: Implement most successful business practices (resulting
in reduction of minimally required inventory levels). (LOG-3.1)

High Risk Area.    The General Accounting Office has identified several high
risk areas in the DOD. This report provides coverage of the Defense Inventory
Management high risk area.

Use of Computer-Processed      Data. We used data provided by DAISY to verify
the reported status of 88 line items on the RESI I list. We also used the Federal
Logistics Information System to verify special handling codes assigned to the
88 line items. The data were accurate for our purposes. We did not test the
reliability of the systems used; however, it did not affect the evaluation results.

Evaluation Type, Dates, and Standards. This program evaluation was
performed from January through April 1998 in accordance with standards issued
and implemented by the Inspector General, DOD.

Contacts During the Evaluation.   We visited or contacted individuals and
organizations within the DOD. Further details are available on request.

Summary of Prior Coverage.       No prior coverage has been performed relating
to property management and disposal controls at DRMO Vandenberg within the
last 5 years.




                                     13
Appendix B. Organizational                       Responsibilities

   The Federal Property and Administrative Services Act of 1949 (the Act)
   assigned responsibilities to the following organizations for the disposition of
   DOD excess and surplus property

   General Services Administration. The Act assigned the responsibility for the
   supervision and direction over the disposition of excess and surplus property to
   the General Services Administration. The administrator of the General Services
   Administration delegated the responsibility for the sale and final disposition of
   surplus personal property that will not be transferred to other Federal agencies
   or donated to authorized donees to the Secretary of Defense.

   Office of the Secretary of Defense. In addition to the responsibilities above,
   the Secretary of Defense has the responsibility under the Act for internal
   screening and redistribution of DOD property among the Military Departments
   and Defense agencies.

   Defense Logistics Agency. The Secretary of Defense assigned DLA the
   responsibility for the administration of Defense material disposal. DLA is
   responsible for approving, coordinating, and establishing budgeting and funding
   and internal control measures; management review and analysis; policy;
   program guidance; resource management; and system concepts and
   requirements.

   DRMS. The DRMS property disposal responsibilities include developing
   systems and programs for accounting, controlling, and disposing of excess and
   surplus personal property. DRMS is also responsible for monitoring the
   property accountability of DRMOs, approving adjustments and corrections to
   property accounts for assigned DRMOs, and exercising operational supervision
   of DRMOs.

   DRMO. The DRMO property disposal responsibilities include providing
   assistance and disposal service to DOD Components and other authorized
   customers; maintaining property accountability and control of excess and
   surplus personal property; conducting periodic physical inventory of disposable
   property on hand; and preparing inventory adjustment documents, as required.




                                       14
Appendix C. Definitions

   The following definitions refer to terms used in this report as they specifically apply to
   the disposal of DOD excess and surplus personal property.

   DAISY. An automated property-accounting management system designed to process
   property through the necessary disposal steps and account for excess and surplus
   personal property from receipt to final disposition.

   Disposal.  The process of reutilizing, transferring, donating, selling, destroying, or
   other ultimate disposition of personal property.

   Excess property (at DRMOs).        Any property not required for the needs and the
   discharge of the responsibilities of DOD and which is available for transfer, donation,
   or sale to non-DOD agencies or the public

   Item management resolution list @UN B). A management report that shows
   property that has been in the possession of a DRMO for more than 1 year.

   Line item. A single line entry on a reporting form or sale document that indicates a
   quantity of property located at any activity having the same description, condition code,
   and unit cost.

   Personal property.    Property of any kind or any interest except real property and
   records of the Federal Government

   RESI I list. The RESI I list contains information on property received by DRMO that
   requires demilitarization, and that has been on hand for at least 35 days without
   completion of required demilitarization actions.

   Surplus personal property.    Personal property located in the United States, American
   Samoa, Guam, Puerto Rico, Trust Territory of the Pacific Islands, and the Virgin
   Islands, which is not needed for the discharge of responsibilities of any Federal agency.
   Upon being declared surplus personal property, responsibility for the disposition of the
   property transfers from the DOD to the General Services Administration.




                                           15
Appendix         D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Environmental Security)
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                             16
                                                          Appendix    D. Report Distribution




Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Commander, Defense Reutilization and Marketing Service
      Chief, Defense Reutilization and Marketing Office, Vandenberg
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
      Technical Information Center

Chairman and ranking minority member of each of the following congressional committees
and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal Justice,
    Committee on Government Reform and Oversight
  House Committee on National Security
  Honorable John McCain, U.S. Senate




                                               17
Part III - Management   Comments
Defense Logistics Agency Comments



                              DECCNSC                 LOGISTICS           AGENCY
                                                    HEAWUARTFRS
                            B725        XW(N    J    KINGMAN      ROAD.    SUITE   2533
                                   IT    BELVOIR.      VIRGINIA      22D606221




                                                                                          2 I JO1 UU




      MEMORANDIA~       FOR ASSISTAh’T MSPECTOR GNERAL                               FOR AL’DITWG,
                              DEPARTMEhT OF DEFEXSE



      SL’BITCT     Ropcrry kfanagcmcnt Conunls ax Dcfcnsc Rcutil~zation and Mtieting                   Office.
                  Vandenberg. Callfomla 7LH-3012 01



      Enclosed arc our comments IO your requxr of 22 May 1998. Should you have an) questions,
      pIeax notify Sharon Enlsnungcr. 7674267




      Encl                                 fi   4       JEFFREY GOLDSTEM
                                                        Chief (Acling). Internal Review Off~c

       cc.
       DLSC-I30
       DLSC-LC
      brm5-




                                                          20
                                                              Defense Logistics Agency Comments




                                                                                                        Final ReDort




SUBJEXT: Property Management Controls at Defense Rtutilitetion and Marketing Office
         (DRMO), V&berg.     California, 7LH-3012.01

FINDING: Pmperty management and disposal controls at DRMO Vandenberg needed
improvement.

RECOMMENDATIONS: DOD IG recommends that the Commander, Defense Reutilization
and Marketing Service:

        I. Complete investigations into the loss of the 88 line items of property requiring
demilitarization that were listed on the Defense Reutilization and Marketing Office, Vandenberg,
January 1998 item management resolution list, in accordance with Defense Reutiliiion and
Marketing Service Instruction 4160.14.

         2. Complete investigations of the 327 line items removed from the Defense Reutilization
and Marketing Off~cc, Vandenberg, accountable records in November 1996, in accordance with
prrvailiag Defense Reutilization and Marketing Service regulations. A less intense investigation
is required for prom     that does not require demilitarization, is nonsensitive, is not highly
pilferable, and has a low dollar value.

       3. Based on the results of the investigations, institute measures, where appropriate, to
preclude recurrence of the loss of property at this magnitude.

        4. Within 45 days of the date of this report, provide investigation results and the status of
corrective sctions taken and planned to the Inspector General, DoD.                                     deleted


DLA COMMENTS:

Concur. A Defense Reutilization and Marketing Service (DRMS) Region West team was sent to
DRMO Vandenberg on April 14-16,1998. to collect data and perform the required investigation.
The evaluation confirmed that DRMO Vandenberg did have inventory control problems during
the timehame specified in the DoD IO rrport. The cause of the losses was determined to bc the
mult of multiple factors, including an inexperienced DRMO Chief and Zone Manager;
inadequate resources to handle the incnzase in workload when the DRh40 went to fill service; a
surge in receipts, particularly in DEMIL-required property; unbaincd temporary employees; and
numerous transient TDY personnel. It was concluded that these factors contributed to the state
of the inventory and the proximate cause of the losses reported during November 1996. The
DRMS investigation also revealed that all reasonable and prudent actions were taken to identify
and research the losses and, except for five line items, the level of approval was appropriate in
accordance with DRMS regulations. No policy or procedural deficiencies wwz found.

DRMS Region West contimrad that the 88 missing line items of excess property did not have
investigations compldd for moor than a year. All 88 DoD Forms 200 and Forms 39-3 were
nzsearched, and no evidence of tiaud, theft, or willful misconduct were found.




                                                  21
Defense Logist its Agency Comments




        SURJECT:     Property Management        Controls at Defense Reutilization   and Marketing   013~.
                     Vandenberg. Wifomir.        7LH-3012.01



        The 327 items thac were dropped from rtcnrd hy the Zone Manager on Forms 39-3 were done so
        without deliberate fraud, theft or willful misconduct However, five of those Items required
        DEMIL and were approved by the Zone Manager in errw. Further investigauon orlhose five
        iwms wll be complcrcd b) July 24. 1998. and included u~th rhe other 88 DD Forms 200.
        DRMS Region U’CSI uill repon findings IO DRMS HQ for rwicw and forwarding to Defense
        Logistics Suppon Command (DISC) by July 24, 1998.

        Corrective actions taken include the DWIS Region WCR as.wssmenl ofDRM0              Vandenberg
        conduced      in April 1998. Random inventories were conducted wilh a 100 percent accuracy rate.
        The new DEMO Chief IS experienced and L;nows the imponance of conducting trmcly
        invatigarions     whcncbcr properry is lost. Items on record for over one year will be inventoried
        every 14 days, and rcsulu wll be vn~ to DRMS. inventory conuol procedures will be reviewed
        by DRMS pno~el during fwure valldalion wits IO DRWOs.

        DlSPOSlTlON:      Awon    IS ongoing.    ECD    Jul) 24. 1998

        ACTIOh’ OFFICER: Tom Ruckdarchcl.      DLSC-LC. 767-l 538
        APPROVAL.:  W B. Bergmann_ f/S R. Morgan. FUDM. SC. L’SNR Acting Executive
                     Director, Logistics Management
        COORDINATION:      Sharon Enumingcr.   DDAI, 767-6267




                                                              22
Evaluation Team Members

This report was prepared by the Readiness and Logistics Support Directorate,
Office of the Assistant Inspector General for Auditing, DOD.


Shelton R. Young
Debra B. D. Murphy
Timothy E. Moore
Andrew Forte
David L. Pinson
Robert Paluck
Cheryl Snyder
